                                  National Science Foundation
                                      420 1 Wilson Boulevard
                                    Arlington, Virginia 22230

Office of lmpectw GmcnI


              SEP 2 8 2307
Date:

To:           Mr. David A. Elizalde, Director
               ivision of Acquisition and Cooperative Support
                          fl.e-
From:           borah H. Cureton
              Associate Inspector General for Audit

Subject:     NSF OIG Audit Report No. 07-02-008, Review of Reasonableness of VECO
             USA, Inc's Proposed Increased Fee Associated with an Accounting Change


This letter report discusses the results of our review of an increased feelprofit proposed
by VECO USA, Inc. (VECO) in conjunction with a change in the company's accounting
for indirect costs.

Background

On May 18,2006, VECO submitted a revised Disclosure Statement to NSF that included
a proposed accounting change to its general and administrativk fG$cA) base which
impacted NSF's cost-plus-fixed-fee Contract No. OPP-0001041. VECO also submitted a
cost impact proposal to NSF that proposed a total increase of                 to the NSF
contract as a result of the accounting change. This amount was comprised of $0
in increased G t A costs as well as w i n increased fee recovery. The results of
Defense Contract Audit Agency's (DCAA) audit of VECO's proposed accounting change
and associated cost impact are discussed in a separate audit (Audit Report No. OIG-07-1-
016). However, DCAA did not express an opinion on VECO's proposed increased profit
amount because feelprofit determinations are made by the Contracting Officer.

The purpose of our review was to determine the reasonableness and allowability under
Federal Acquisition Regulations (FAR) of reimbursing VECO the proposed increased fee
that resulted from VECO's accounting change to its GLA base. We conducted our
review in accordance with generally accepted government auditing standards. To
accomplish our objective, we obtained and reviewed contractual documents, interviewed
the NSF Contracting Officer, and researched applicable FAR, obtaining expert advice as
necessary.
 Results of Review

 We determined that it is not reasonable to reimburse VECO the p r o p o s e d w ' o f
 increased fedprofit that resulted from VECO's accounting change because it does not
 comply with the FAR.

 NSF Contract No. OPP-0001041 is a cost-plus-fixed-fee contract which is "a cost-
 reimbursement contract that provides for payment to the contractor of a negotiated fee
 that is fixed at the inception of the contract. The fixed fee does not vary with actual cost,
 but may be adjusted as a result of changes in the work to be performed under the
 contract."' FAR 16.102(c) prohibits the cost-plus-a-percentage-of-cost system of
 contracting by stating: "The cost-plus-a-percentage-of-cost system of contracting shall




                                                                              -
 not be used (see 10 U.S.C. 2306(a) and 41 U.S.C. 254@))." In general, any contractual




                      -
 provision is prohibited that assures the contractor of greater profit if it incurs greater
 costs. The fixed fee may be adjusted if the government directs the contractor to perform
 additional work not covered within the scope of the original contract, but this exception is
 not applicable to the subject VECO accounting change.

VECO's cost impact proposal totaling Bis comprised of                                   in
increased G&A costs as well as-              in increased fee recovery. The increased fee
was calculated at               of the proposed increased G&A costs of                  or
          that resulted from the accounting change. NSF accepted both VECO's proposed
increased costs for the accounting change and proposed increased fee by means of
Contract Modification No. 23, dated March 21, 2007, and established a settlement for
G&A costs and fee recovery in the amount o           m      . NSF provided partial funding
of the settlement amounting to     w           and stated that, "the remaining funding of
           is scheduled to be provided in FY 2008." As a result, NSF's settlement amount
of              in Contract Modification No. 23 (based on VECO's cost impact proposal
wherein VECO applied a        v             rate to its proposed actual performance costs)
violates the proscription against the cost-plus-a-percentage-ofcost system of contracting.




-
We discussed our finding and recommendation with the current NSF Contracting Officer
who agreed with our conclusion and stated that she intends to disallow the increased
profit amount of

Recommendation

We recommend that NSF negotiate with VECO to reverse the increased feelprofit of
         which was based on a percentage of VECO's proposed actual ~erfomancecosts
M ViOtat'iiitE profijRioFa@ini the cost-plus-a-percentage-of-costsystem of
contracting.

To help ensure the finding is resolved within six months of issuance of the audit report,
please coordinate with our office during the audit resolution period to develop a mutually
agreeable resolution of the audit recommendation. NSF Contact No. OPP-0001041

 ' Reference FAR 16.306(a).
should not be closed until NSF determines that this recommendation has been adequately
addressed and the proposed corrective action has been satisfactorily implemented.

We are providing a copy of this memorandum to the Director of the Office of Polar
Programs. The responsibility for audit resolution rests with DACS. Accordingly, we ask
that no action be taken concerning the report's finding without first consulting DACS at
(703) 292-8242.

We thank you and your staff for the assistance extended to us during the audit. If you
have any questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or
David Willems at (703) 292-4979.




cc: Karl Erb, Director, OPP
    Mary Santonastasso, Director, DIAS
